Case: 17-20125

Document: 00514498739 Page: 1

Date Filed: 06/04/2018

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 17-20125
Summary Calendar

FILED
June 4, 2018
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JERRIEUS WILLIAMS, also known as Jerrius Williams,
Defendant-Appellant

Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:15-CR-266-2

Before HIGGINBOTHAM, JONES, and SMITH, Circuit Judges.
PER CURIAM:*
The attorney appointed to represent Jerrieus Williams has moved for
leave to withdraw and has filed a brief in accordance with Anders v. California,
386 U.S. 738 (1967), and United States v. Flores, 632 F.3d 229 (5th Cir. 2011).
Williams has not filed a response. We have reviewed counsel's brief and the
relevant portions of the record reflected therein. We concur with counsel's
assessment that the appeal presents no nonfrivolous issue for appellate review.

* Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.

Case: 17-20125

Document: 00514498739 Page: 2 Date Filed: 06/04/2018

No. 17-20125
Accordingly, counsel's motion for leave to withdraw is GRANTED, counsel is
excused from further responsibilities herein, and the APPEAL IS DISMISSED.
See 5TH CIR. R. 42.2.

2

Case: 17-20125

Document: 00514498756 Page: 1 Date Filed: 06/04/2018

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK

LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

June 04, 2018
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding: Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc
No. 17-20125

USA v. Jerrieus Williams
USDC No. 4:15-CR-266-2

Enclosed is a copy of the court's decision. The court has entered
judgment under FED. R. APP. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
FED. R. APP. P. 39 through 41, and 5TH CIR. R.s 35, 39, and 41 govern
costs, rehearings, and mandates. 5m CIR. R.s 35 and 40 require
you to attach to your petition for panel rehearing or rehearing en
bane an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
FED. R. APP. P. 40 and 5TH CIR. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.

Direct Criminal Appeals. 5TH CIR. R. 41 provides that a motion for
a stay of mandate under FED. R. APP. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under FED. R. APP. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court A ointed Counsel. Court appointed counsel is responsible
or i ing petition s
or rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari. Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 17-20125

Document: 00514498756 Page: 2 Date Filed: 06/04/2018

Sincerely,
LYLE W. CAYCE, Clerk
(&)1(113A4
By:
Erica A. Benoit, Deputy Clerk
Enclosure(s)
Ms. Carmen Castillo Mitchell
Mr. David Allen Nachtigall
Mr. Jerrieus Williams

U.S. Department of Justice
United States Attorney's Office
Southern District of Texas
Appellate Division
1000 Louisiana Street
Suite 2300
Houston, Texas 77002

Phone (713) 567-9102
Fax (713) 718-3302

November 5, 2019
David J. Bradley
Clerk of Court
P.O. Box 61010
Houston, TX 77208
Re:

United States vs. Jerrieus Williams
Crim. No. 4:15-cr-266-2
Civ. No. 4:19-cv-2083

Dear Mr. Bradley:
The enclosed document was received in our office on October 21, 2019, from
defendant/movant Jerrieus Williams. The document was forwarded to the Appellate
Division on October 25, 2019. Our review indicates that this document was intended
for the clerk's office. Please review and process as appropriate.
Thank you for your assistance in this matter.
Sincerely, oectp
c.....,
RYAN K. PATRICK
;United States Attorney
=CARMEN CASTILLO MITCHELL
Chief, Appellate Division
/s/ Michael A. Hylden
Michael A. Hylden
Assistant United States Attorney
MAH/lm
Enclosure(s)
cc:

Jerrieus Williams, pro se

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

April 16, 2020
#87217-379
Mr. Jerrieus Williams
FCI El Reno
4205 Highway 66 W., P.O. Box 1500
El Reno, OK 73036-1500_
No. 17-20125

USA v. Jerrieus Williams
USDC No. 4:15-CR-266-2

Dear Mr. Williams,
We received your motion for a Certificate of Appealability, with
incorporated brief in support. The mandate issued June 26, 2018
and this case is closed. In light of this, we are taking no action
on this motion.

Sincerely,
LYLE W. CAYCE, Clerk

By:
Jann M. Wynne, Deputy Clerk
504-310-7688

